       UNITED STATES DEPARTMENT OF AGRICULTURE

              OFFICE OF INSPECTOR GENERAL




              STATEMENT OF ROGER C. VIADERO

                    INSPECTOR GENERAL



                           Before the

             HOUSE APPROPRIATIONS SUBCOMMITTEE
                             ON
AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,
                            AND
                      RELATED AGENCIES


                      February 11, 1999
                                  STATEMENT
                                      of
                              ROGER C. VIADERO
                             INSPECTOR GENERAL
                       OFFICE OF INSPECTOR GENERAL
                     U.S. DEPARTMENT OF AGRICULTURE
                                 before the
           HOUSE APPROPRIATIONS SUBCOMMITTEE ON AGRICULTURE,
            RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,
                           AND RELATED AGENCIES

                           February 11, 1999



                      INTRODUCTION AND OVERVIEW

Good afternoon, Mr. Chairman and members of the Committee. I am pleased
to have this opportunity to visit with you today to discuss the
activities of the Office of Inspector General (OIG) and to provide you
with information on our audits and investigations of some of the major
programs and operations of the U.S. Department of Agriculture (USDA).

Before I begin, I would like to introduce the members of my staff who
are here with me today: Jim Ebbitt, Assistant Inspector General for
Audit; Greg Seybold, Assistant Inspector General for Investigations; and
Del Thornsbury, Director of our Resources Management Division.

I want to thank the Committee for its support during the nearly 4-1/2
years since my appointment as Inspector General. We have tried to work
closely with you, and I hope that we have been able to address some of
your concerns.

OIG’s mission is to perform audits and investigations of the
Department’s more than 300 programs and operations, recommend policies
and actions to promote economy and efficiency, and prevent and detect
fraud, waste, and mismanagement in these programs and operations. We
keep you and the Secretary informed about problems and deficiencies and
report criminal violations to the U.S. Attorney General. We have a
diverse staff of auditors, criminal investigators, and other personnel
in offices throughout the Nation to carry out these activities.
I am proud to say that in fiscal year (FY) 1998, we continued
to more than pay our own way. In the audit arena, we issued
220 audit reports and obtained management’s agreement on
1,122 recommendations. Our audits resulted in questioned costs
of over $112 million. Also, as a result of our audit work, management
agreed to recover more than $39 million and put another $128 million to
better use. Most importantly, implementation of our recommendations by
USDA managers will result in more effective operations of USDA programs.
Additionally, our investigative staff completed 815 investigations and
obtained 777 indictments, 604 convictions, and 2,780 arrests.
Investigations also resulted in $81 million in fines, restitutions,
other recoveries, and penalties during the year.

We continued to work closely with agency officials during FY 1998 to
address key issues and to expand our cooperation with other Federal,
State, and local law enforcement and audit agencies to broaden the
impact of our work. Working together, our staffs identified program
weaknesses and program violators. Capitalizing on the staffs’
respective expertise, we created solutions for positive action.

In FY 1999, we are focusing our efforts primarily on food safety and
smuggling of uninspected, unapproved food products carrying unwanted
pests and diseases into the United States that affect the wholesomeness
of the Nation's food supply. We are also focusing our audit efforts on
the Department’s financial accounting systems; farm credit programs; the
Rural Rental Housing Program; the Food Stamp Program, including its
Electronic Benefits Transfer efforts; and the Child and Adult Care Food
Program. In addition to investigations and emergency responses to
threats to the health and safety of food, our investigative priorities
include investigations of sponsors abusing the child and adult care
programs; employee integrity issues; and fraud in the Department’s loan,
regulatory, and benefit programs.

Before I discuss some of our specific audit and investigative
activities, I would like to update the Committee on the status of our
forfeiture authority.

I am pleased to report to you that on the forfeiture front, with this
Committee’s strong support, we are now authorized to receive proceeds
from forfeiture actions arising from our investigations. Our memorandum
of understanding was signed with the Department of Justice in May of
last year and, since that time, we have been a fully participating
agency in the Justice Department's Asset Forfeiture Fund.

Special Health and Safety Initiative

Mr. Chairman, at this time, I would like to discuss our special law
enforcement request for FY 2000. This effort will be a major endeavor
for the agency, and we ask your support to provide the resources
necessary for it.



                                   2
The quality or wholesomeness of the Nation’s food supply, from
production to the consumer, is of special concern to OIG.
Investigations of any criminal activity that poses a threat to the
general health and safety of the public remain our highest priority.
Criminal investigations have usually involved the processing and sale of
adulterated meat or poultry and egg products; criminal tampering with
food products consumed by the public; and product substitution,
adulteration, or other misrepresentation of food products which are
regulated or purchased by USDA.

Recent and ongoing investigations involving real or alleged threats to
food products intended for the public have necessitated the immediate
deployment of OIG special agents and auditors to several U.S. cities.
These cases have involved real or threatened adulteration or
contamination of meat with everything from E. coli bacteria or Listeria
to HIV-infected human blood. Some of these products were destined for
or actually ended up in the National School Lunch Program or on military
bases.

To address these types of emergencies, we are entering into joint
activities with other Federal and State agencies to share intelligence
and conduct undercover operations. Doing so will help us stem the
threat to the food supply from packing plants and other facilities and
target criminal enterprise in general.

The increasing threat to the wholesomeness of domestic and exported food
requires not only vigilance but also advanced preparedness including
preemptive operations. Profit-motivated criminal activity that
threatens the food industry can cause economic disruption while
victimizing innocent members of the industry. Likewise, threats of
criminal adulteration and biological contamination of food products from
outside the food industry for extortion or ideological motives can
victimize and disrupt the Nation’s food production and distribution
systems. These threats must be resolved through a vigilant, established
emergency law enforcement and health and safety response.

A threat in a Milwaukee, Wisconsin, meat plant is a prime example of
these types of dangers. This past December, the plant received a threat
of biological contamination using HIV-infected human blood. We
immediately deployed 30 OIG special agents (including eight bilingual
agents to converse with Spanish-speaking plant employees) and four
auditors to the scene to determine the validity of the threat and to
identify those responsible. Personnel from the Food Safety and
Inspection Service (FSIS) assisted in this investigation, with FSIS
staff taking the lead role in ensuring that potential contaminants had
not been introduced into the food chain. Our investigative efforts to
resolve this bioterrorism threat continue. Approximately 580 interviews
have been conducted to date. I am pleased to be able to report that
extensive testing of samples taken from the plant has not indicated the
presence of human HIV-infected blood.




                                   3
In another significant case, an OIG Emergency Response Team was
dispatched to a Nebraska meat plant to investigate an outbreak of E.
coli bacteria when 15 people in Colorado became ill after eating ground
beef patties that came from the plant. Two plant officials have been
indicted and await trial for misleading FSIS and OIG during our attempts
to determine the source of the E. coli bacteria. Some 25 million pounds
of ground beef were recalled due to this contamination, which, at that
time, was the largest meat recall ever in the Nation.

Additionally, we are currently investigating a significant case
involving another meat company alleged to have intentionally adulterated
and misbranded beef and pork products, which have also tested positive
for E. coli bacteria. Approximately 4.4 million pounds of this
company’s meat product containing ground pork or ground beef are under
voluntary hold at various school districts, prisons, military
institutions, and other facilities. In addition, another 1.6 million
pounds of this product are being retained or detained at other
facilities.

We have also investigated other cases in which the health and safety of
the public were at serious risk. In Buffalo, New York, three feed
company employees pled guilty to Federal charges and await sentencing
for their role in selling canned meat products to the public which were
unfit for human consumption. This product was being shipped from a
Canadian company to the feed company to be used as animal food but was
diverted by these individuals to be sold for human consumption. In a
second case in New York, an FSIS inspector pled guilty in Federal court
and was sentenced to 6 months in prison for accepting bribes from the
owner of a slaughter facility to permit the slaughter of livestock,
including 3-D (dead, diseased, or dying) cows, without the benefit of
inspection. In Pennsylvania,
the owner of a slaughterhouse
pled guilty to conspiracy,
while three employees pled
guilty to violating the Federal
Meat Inspection Act. These
individuals were caught
slaughtering 3-D cows after the
FSIS inspector had left the
premises and then commingling
the unwholesome product with
meat that had been inspected.

We have initiated audits of the
new food safety procedures for
inspecting meat and poultry
plants, the Hazard Analysis
Critical Control Point system,
or HACCP. Since an increasing
number of processing plants are
becoming subject to HACCP, the
safety and wholesomeness of the
Nation’s meat and poultry
                                  Tub of Unidentified Waste Found at Site

                                     4
supply are dependent on HACCP being successfully implemented.
Meanwhile, our efforts to actively address the problems of food safety,
posed by those who put it at jeopardy and who are motivated by profit or
ideology, present special concerns for us. OIG needs to be prepared to
immediately respond to these emergency situations. To do so, we must be
equipped with the specialized equipment, protective clothing, and
supplies necessary to ensure the health and safety of our personnel
responding to these crises.

We also need to be mindful of the economic impact of closing a major
food processing plant. To our knowledge, the Milwaukee plant I
mentioned earlier had violated no laws and had been successfully
implementing HACCP inspection procedures. Yet, its production line was
successfully halted by outside forces, tons of its product were put on
hold, and the facility was temporarily shutdown. OIG’s rapid response
and deployment of considerable staff resources not only helped to
protect the health and safety of consumers, but it also allowed the
plant to reopen--reemploying approximately 1,500 people with a minimum
disruption of production, lost profit, and impact on the local economy
as opposed to an indefinite and costly closure.

The costs of rapid responses by OIG such as this are great. In addition
to the personnel time and the disruption to other critical OIG work, to
date, we have expended approximately $40,000 in unanticipated travel
costs in the Wisconsin investigation alone. This figure will continue
to rise until the matter is resolved.

Another form of criminal enterprise that poses a significant threat to
the Nation’s food supply and its economic well-being is smuggling of
uninspected, unapproved food products into the United States. A direct
result, and a byproduct of smuggling, is the danger that forms of
pestilence--whether insects, fungi, bacteria, or viruses--not previously
present in the United States could be introduced here. As a result,
entire crops of the U.S. agricultural industry--such as citrus,
vegetables, trees and other plants, or beef, poultry, and pork
products--could be severely damaged, devastating the economy of the
local communities producing these products as well as reducing both the
quantity and quality of the Nation's food supply.

The Administration has begun a new initiative to counteract the invasion
of unwanted and mostly foreign species of plants and animals. By
Executive Order, the President has established an Invasive Species
Council, which the Secretary of Agriculture will Co-chair, to ensure a
safe and wholesome food supply and prevent the spread of unwanted,
invasive pests.

OIG has begun an antismuggling campaign to interdict and suppress
foreign contraband that is dangerous when consumed by the American
population, and potentially catastrophic to the economic stability of
certain U.S. agricultural products. Ongoing criminal investigations are
targeting smuggled fruits, vegetables, plants, and other commodities or
animals that bring high dollars in underground "black market" commerce.
This initiative requires significant agent resources dedicated to


                                   5
intelligence collection, undercover operations, and foreign law
enforcement cooperative efforts that cross international boundaries.
These activities normally require extensive surveillance utilizing
high-tech investigative devices and equipment.

The smuggling of infested fruits into the United States is a serious law
enforcement problem because the criminal profit is tremendous while the
deterrent is grossly inadequate at present. Longans are a good example.
Longans are prized Asian fruits. They cost $1 a pound from distributors
in Taiwan and are sold illegally in U.S. markets at $7 to $10 per pound.
Often they are contaminated with fruit flies. Although banned in the
United States, sealed containerized shipments of longans are routinely,
and legally, allowed into U.S. ports for transshipment to Canada.
Intelligence efforts have documented that semi-trucks, which can carry
40,000 pounds or more of containerized longans, have transported
shipments into Canada, where the fruit is not prohibited, only to turn
around and smuggle the shipments back into the United States, thus,
allowing for pest infestations in this country.

One well-known example of a devastating pest that has been introduced
into this country is the Mediterranean fruit fly, commonly called
Medfly. One of the world’s most destructive agricultural pests, it
attacks more than 250 kinds of fruits, nuts, and vegetables, causing
major economic losses. Whole States can be beset with severe crop
losses and economic problems caused by this and other such pests. In
the past 4 years, Florida has been faced with severe outbreaks of
oriental fruit fly, citrus leaf miner, brown citrus aphid, citrus
canker, African beetle, leather leaf anthracnose, pine short beetle, and
sweet potato fly in addition to the Medfly infestations. Animal pests
and disease importation are a severe problem in Florida and, due to the
favorable climate in most of the southeastern United States, the pests
and diseases could easily spread throughout that area. The costs to
protect the industry are staggering. Since 1980, over $256 million in
California State and Federal funds has been spent to eradicate Medfly
infestations in quarantined areas. In the last 10 years, Florida has
spent more than $150 million to eradicate such infestations.

The risk to the agricultural industry, including exports, is clear. The
State of California alone produces over $25 billion in fruits, nuts, and
vegetables annually--about 55 percent of the Nation’s output. About
$11.8 billion of these commodities is exported to other countries each
year.

In carrying out successful smuggling investigations, OIG must perform
extensive travel; procure and maintain the necessary specialized
equipment needed to investigate these incidents; provide essential
protective supplies and/or equipment to ensure the health and safety of
our agents and auditors; and provide specialized training to our staff
to prepare them to cover various types of such emergencies. OIG must
also provide state-of-the-art Y2K compliant ADP equipment and systems to
track data; analyze intelligence-based information; and provide faster,
more responsive information to better support this mission work. All of
these items are essential to ensure that OIG can adequately address this


                                   6
critical public health and safety issue concerning the quality and
wholesomeness of the Nation's food supply.

Mr. Chairman, at this time, I would like to highlight some of our other
audit and investigative activities.

                  AUDIT AND INVESTIGATIONS ACTIVITIES

                   MARKETING AND REGULATORY PROGRAMS

ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)

We have investigated various types of criminal acts involving APHIS
programs. An investigation in San Francisco, California, provides a
good example. In this case, two businessmen pled guilty to causing the
delivery of misbranded food for introduction into interstate commerce in
this case. A joint investigation conducted by OIG, the U.S. Customs
Service, and the U.S. Food and Drug Administration disclosed that the
businessmen smuggled bird nests, abalone, fish maw, scallops, and dried
oysters from Hong Kong by commingling these products with their
legitimate imports of frozen shark fins and other food products. The
two businessmen received 3 years’ probation and were each ordered to pay
a $3,000 fine and restitution of $1,500. A third individual is pending
trial on similar charges.

In Oregon, six individuals are awaiting sentencing after they pled
guilty on Federal charges of theft for their part in a conspiracy to
fraudulently acquire and sell over 100 dogs to medical research
facilities. The six defendants have also agreed to testify against a
former USDA-licensed dog dealer, her husband, and their son, who have
all been indicted for conspiracy and mail fraud related to the scheme.
Our investigation disclosed that the dealer and her associates either
stole dogs or obtained them under false pretenses over a 15-month
period. The dealer then falsified APHIS forms in order to conceal her
activities. She also forwarded false documents to the Oregon State
Department of Agriculture.

AGRICULTURAL MARKETING SERVICE (AMS)

Oversight of the Fluid Milk Promotion Program Needs Strengthening

Our review of the Fluid Milk Promotion Program indicated that AMS and
the National Fluid Milk Promotion Board need to improve their oversight
and controls over the program’s activities to ensure that assessments on
fluid milk are used in accordance with the Fluid Milk Promotion Act.
Those assessments, from approximately 370 processors, totaled about
$169 million from December 1993 through June 1997.

Neither AMS nor the Board provided adequate management or oversight of
program activities. AMS left most oversight efforts to the Board. The
Board delegated most administrative functions to two contractors and was
not actively involved in the day-to-day operations of the program. One
contractor, the Milk Industry Foundation, was responsible for performing


                                   7
various management and administrative services. The other contractor,
the Board’s Administrator, was responsible for collecting assessments,
accounting for funds, and performing compliance reviews. These services
were provided through contracts with the Administrator’s public
accounting firm. Altogether, the Board’s Administrator, either as an
individual or through his firm, had three sole-source contracts with the
Board.

Although AMS was responsible for reviewing and approving all contracts,
the Board paid over $127 million for contracts, representing 75 percent
of the funds collected through the program, without AMS’ approval. The
Board entered into these sole-source contracts without any competition
to ensure the most cost-effective procurement of services.

The Act requires that the Board obtain title to all assets developed
using program funds. In one case, the contract to procure photographs,
taken as part of a major milk-marketing campaign, the popular “Milk
Mustache” or “Got Milk” advertising campaign, did not include language
to secure title to the photographs. Consequently, the program expended
almost $130,000 in royalties for the continued use of the photographs.
The photographer still has control and possession of the photographs,
which were developed using over $2.7 million in program funds.

Overall, neither AMS nor the Board has determined, as required by the
Act, whether the program has resulted in increased milk consumption.
While this marketing campaign has been highly visible in the
marketplace, no independent studies have been performed to determine the
campaign’s impact on fluid milk consumption.

We recommended that AMS: (1) suspend Board program activities until a
plan is developed whereby the Board will take full control of its
activities and comply with the Act, including establishing guidelines
for awarding contracts to ensure that contracted goods and services are
obtained in the most cost-effective manner; (2) require the Board to
determine the effectiveness of its research and promotion activities to
increase fluid milk consumption; (3) require the Board to obtain AMS
approval on all contracts before any funds are obligated or expended and
that the Board obtain title and possession of all assets acquired with
program funds; and (4) require the Board to assure that audits of its
books and records are conducted using generally accepted Government
auditing standards.

AMS did not agree to suspend the Board’s activities. However, it has
agreed to institute improvements and is continuing to work with the
Fluid Milk Board to strengthen management controls.




                                   8
                  FOOD, NUTRITION, AND CONSUMER SERVICES

FOOD AND NUTRITION SERVICE (FNS)

Operation Talon

In previous testimony, I informed you we had initiated "Operation
Talon." This special law enforcement initiative, made possible by the
passage of Welfare Reform, involves the exchange of information between
law enforcement and State social services agencies. Specifically, law
enforcement fugitive records are matched with social service agencies’
food stamp recipient records, and the information is used by law
enforcement officers to locate and apprehend dangerous and violent
fugitive felons who may also be illegally receiving food stamp benefits.


Overall, Operation Talon has been the most successful investigative
initiative we have yet undertaken. To date, this initiative has
resulted in the arrest of over 3,650 fugitive felons. This has included
26 wanted for murder or attempted murder; 11 for rape or attempted rape;
8 for kidnapping; and 1,202 for assault, robbery, or drug offenses.
This has also resulted in the arrest of 18 fugitive felons wanted for
child molestation. A number of States are removing arrested fugitives
from their food stamp rolls, which will result in savings to the Food
Stamp Program and allow food stamp benefits to continue to go to the
needy for whom they were intended. One particularly rewarding note is
that 2 of the 18 fugitives wanted for child molestation have also been
charged with violating State "Megan’s Law" statutes. In one of these
cases, OIG and the Hudson County, New Jersey, Sheriff’s Department
arrested a convicted child molester for failing to register as a sex
offender. The fugitive had moved without notifying appropriate State
officials and eluded the authorities until he provided his new address
to participate in the Food Stamp Program.

One recent Operation Talon success was in Austin, Texas, where our
special agents worked with Texas law enforcement officials in
apprehending over 75 fugitive felons. We have additional warrants and
anticipate the arrest of numerous other fugitive felons in this highly
successful operation. Operation Talon is an ongoing initiative, and,
working with local law enforcement agencies, we are planning future
arrest operations in many parts of the country.

Food Stamp Program (FSP)--Coupon Trafficking

We are continuing to devote significant investigative resources to
combat fraud in the Food Stamp Program. Ever since the program began
distributing food stamps to needy Americans, unscrupulous people have
been willing to devise methods to unlawfully benefit from this important
program. There are basically two types of traffickers--the street
traffickers who buy or barter food stamps or EBT card benefits for cash
or other nonfood items, and the retailers who purchase or redeem
unlawfully obtained food stamps or cards from eligible recipients.



                                    9
We have conducted several significant food stamp trafficking cases in
the last year. Investigations conducted of large-scale fraud operations
in New York, Philadelphia, and Detroit are good examples of these. In
these investigations, we have thus far identified 55 store owners and
employees involved in the unlawful acquisition of some $99 million in
food stamp benefits. This has resulted in the arrest and conviction of
many of these individuals, some of whom have been sentenced to prison
terms and ordered to pay millions of dollars in restitution. Our
investigations into these matters continue, and we anticipate additional
persons will be charged.

Child and Adult Care Food Program (CACFP)

Last year, I testified about a special law enforcement initiative we had
undertaken with one of the targeted programs being CACFP. I indicated
that we would continue "sweeps" of program sponsors to find those who
are abusing the program to remove them from sponsorship, to prosecute
them if warranted, and to recover ineligible payments. Since last year,
our CACFP initiative has been designated as a Presidential Initiative
which we named Operation "Kiddie Care."

Our efforts have been very successful. Currently, we have
29 open CACFP investigations. As of December 1998, 54 sponsors in 23
States were being audited or investigated. We identified 37 sponsors as
being seriously deficient, a term used by FNS to designate sponsors who
could be terminated from the program unless the deficiencies are
addressed promptly. Fourteen sponsors, who had been receiving a total
of $24.4 million annually, have been terminated from the program.

In Ohio, seven persons, including the director of the sponsoring
organization operating a local child and adult care food program, pled
guilty to conspiracy to submit false claims for issuing or receiving
reimbursement payments for in-home day care providers who did not exist
or did not have children in the home. This ongoing investigation has
identified 11 people to date who conspired to set up more than 40 false
providers. This conspiracy, which had been ongoing since 1988, resulted
in the submission of false claims for reimbursements totaling about
$1.1 million. The investigation continues with additional prosecutions
anticipated.

In another California case, an executive director of a sponsor retained
food reimbursements to cover the salary he claimed to earn in California
while he was actually working for another enterprise and living in
Wisconsin. He also had a vehicle in Wisconsin for his personal use
which was being paid for by the California sponsor. We are currently
investigating about $231,000 of program funds paid to this individual.

We will continue with Operation "Kiddie Care" as long as we find
evidence that abuses exist. Returning integrity to this important
feeding program and protecting the resources of the American taxpayer
are high priorities for OIG and FNS.




                                   10
Special Supplemental Food Program for Women, Infants, and Children (WIC)

One of the primary purposes of the WIC program is to provide funds to
pregnant women and families with small children to allow them to
purchase certain nutritious food items. In an effort to curb fraud in
the WIC program, we are continuing our investigative activities in this
area. One such investigation occurred in conjunction with the Columbus,
Ohio, Division of Police; the Ohio Department of Taxation; and the
Franklin County prosecutor where we conducted a 12-month undercover
investigation into trafficking of WIC infant formula and untaxed
cigarettes. Investigators determined that store owners and a wholesaler
received the formula through the black market, removed its "not for
retail sale" marking, and sold it commercially in area stores and to
businesses in other States. In two separate "buy-bust" cases, store
owners and managers were arrested for illegally purchasing hundreds of
cases of WIC formula and hundreds of thousands of cartons of untaxed
cigarettes. Both
investigations were linked to a
Columbus commodity wholesaler
at whose warehouses between
$500,000 and $1 million in
commodities were seized. The
owner and the manager of the
first "buy-bust" case pled
guilty to racketeering and
trafficking in WIC benefits and
untaxed cigarettes. The owner
and manager in the second case
pled guilty to trafficking in
WIC benefits and untaxed
cigarettes. Their corporation
pled guilty to racketeering,
and the wholesaler is now a
fugitive.

                                  Counterfeit Plates Used in Trafficking

                 FARM AND FOREIGN AGRICULTURAL SERVICES

FARM SERVICE AGENCY (FSA)

OIG and FSA Managers Meet

In a joint effort to further agency cooperation, OIG and FSA senior
managers and other policy makers met at a roundtable conference in
San Antonio, Texas, the week of December 7, 1998, to explore and embrace
new ways of working together. Prior negative experiences brought many
participants to the conference with an "us versus them" attitude. In
the roundtable, OIG auditors, special agents, and FSA program officials
were able to explain obstacles they frequently encountered in
accomplishing their agencies' missions. Working together as part of a
united team, the participants identified several opportunities to


                                   11
improve communications, and all participants left with a new
appreciation for the other’s needs. We look forward to improved working
relationships with FSA’s Administrator and his hardworking staff.

Noninsured Crop Disaster Assistance Program (NAP) Overpayments

We reviewed 1996 crop-year program payments in California, Florida,
Georgia, and Oklahoma, where $26.9 million in benefits--out of a total
of $45.9 million nationwide–-were paid as of July 31, 1997. We found
hidden or inaccurate reporting of production and the use of incorrect
yields to compute payments for 23 of the 98 cases. We found that
because the estimates and adjustments used to determine loss could not
be verified, the process for determining the actual amount of loss
allowed producers to obtain unwarranted program benefits. This was a
major problem for seeded wheat forage in Oklahoma. For other
crops--strawberries, cherries, and onions--production was based on
information reported by the producer which also was not verifiable as
actual production. We recommended that FSA collect $411,000 in
overpayments. FSA has agreed to review the payments and collect any
overpayments to which relief provisions did not apply.

Overpayment of Emergency Assistance to Producers in the Upper Great
Plains

In January 1997, FSA implemented two programs to provide assistance to
endangered livestock caught in the blizzards and cold weather in North
and South Dakota. The Emergency Feed Grain Donation Program (EFGDP)
provided 100-percent cost-share assistance to livestock producers for
snow removal and to feed their livestock in immediate danger of
perishing. The Foundation Livestock Relief Program (FLRP) provided
30-percent cost-share assistance for area producers to enhance the diet
of foundation livestock–-or breeding stock--weakened by the severe
winter weather.

Because the two programs ran concurrently with different cost-share
rates, some producers improperly received assistance for supplemental
feed purchases under EFGDP instead of FLRP. This allowed the producers
to receive 100 percent of the feed cost compared to the 30-percent cost-
share. In addition, we found that producers were paid excessive snow
removal costs during a 15-day extension period and for snow removal when
they already had access to normal feed supplies. FSA improperly
authorized $2.5 million of FLRP payments to 23 counties in Iowa,
Montana, Nebraska, and Wyoming adjoining the disaster area. We
recommended FSA strengthen its oversight role in certain areas to help
ensure that future disaster assistance is limited to identified areas
and require county offices to act on the cases where excessive EFGDP and
FLRP payments were issued. FSA believes its existing controls are
generally adequate; but, due to the complexity and difficulty of
administering emergency and disaster programs, procedures to improve
oversight will be incorporated into future programs. FSA agreed,
subject to the finality rule, to recover the overpayments.




                                   12
Environmental Benefits Index Scores Controls Could Be Improved

Under the Conservation Reserve Program (CRP) producers receive annual
payments from FSA to take highly erodible cropland out of production and
establish and maintain a vegetative cover on it. During signup,
producers designate tracts of land determined to be environmentally
sensitive, which are reviewed and scored according to values on the
Environmental Benefits Index (EBI). One subpart of the index identifies
the environmental benefits of the land, such as providing cover
beneficial to wildlife. It also specifies what numerical scores may be
given for the different kinds of conservation practices--planting mixed
grasses, legumes, etc.--that the producer established to enhance each
benefit. Tracts that have been awarded higher scores are regarded as
more worthy of conserving and qualify for CRP consideration ahead of
tracts with lower scores. Tracts that fall below a minimum score are
excluded from the program.

We reported that the Natural Resources Conservation Service’s (NRCS)
implementation of CRP exhibited significant control weaknesses. These
included improperly modified point scores for various environmental
ranking factors and subfactors in some States. In addition, producers
in some States received high scores for preserving cover beneficial to
wildlife or for protecting threatened and endangered species even though
the required cover or endangered species were not present on the tract
of land. Such inconsistencies can result in greater CRP consideration
for cropland in one State, even though its environmental benefits are no
greater than those of its neighbors. We identified approximately 2,900
offers nationwide with annual rental payments totaling about $13 million
that were at risk of incorrect acceptance into CRP. NRCS management
issued guidance that addressed some scoring problems noted in our
review.

FARM SERVICE AGENCY (FSA) INVESTIGATIONS

Historically, one of our primary activities has been the investigation
of criminal violations of the various farm loan programs administered by
USDA. We continue to conduct such investigations with great success. A
good example is a honey producer in Idaho. This individual was
sentenced to serve 28 months in prison and ordered to pay USDA over $3
million in restitution after he pled guilty to submitting false
statements to FSA in order to obtain over $6 million in loans and
subsidy payments.


                              RURAL DEVELOPMENT

RURAL HOUSING SERVICE (RHS)

OIG and RHS Join Forces to Combat Fraud and Abuse in Rural Rental
Housing (RRH) Program

OIG and RHS combined efforts to identify, investigate, and prosecute
owners and management agents that had abused or defrauded the RRH


                                     13
program. We targeted owners and management agents who were suspected of
abusing the program.

Joint OIG-RHS teams physically inspected 631 apartment complexes and
then examined the financial records of apartment complexes operated by
32 owners and management agents in 13 States. The teams identified over
$3.5 million in misused funds and uncovered serious physical
deterioration of some apartment complexes, including conditions that
posed health and safety risks to the tenants. Our work is continuing,
and we will issue a summary report later this spring.

An investigation in Washington State centered on a prominent local
attorney who was a general partner of multiple limited partnerships
which owned federally financed and subsidized low-income housing
projects. The attorney had built 65 apartment projects in 20 States
under the RRH program. Our investigation disclosed that the partner
submitted false and fictitious construction invoices to RHS and to the
lending banks which administered RHS loans in order to divert $176,000
in funds from four RHS loans. Our investigation also showed that he
received kickbacks from the bank where loan funds were deposited. In
order to conceal the kickbacks, he submitted fictitious invoices to the
bank for purported legal services rendered. He also failed to disclose
$95,000 in income derived from the diverted funds and other sources on
his 1995 individual income tax return. He pled guilty to making false
statements, receiving unlawful payments, and filing a false Federal
income tax return. He was sentenced to 21 months in prison and ordered
to pay $300,000 in restitution.

Problems Exist With Electric Program Loan Funds, Borrowers

We evaluated the Rural Utilities Service's (RUS) electric program
because of its high dollar value--approximately $32 billion, potential
for large losses--writeoffs of more than $1.7 billion and about
$8 billion owed by troubled borrowers, and recent changes in legislation
and in the industry. We found that the eligibility criteria prescribed
by law and regulation for hardship loans and prioritization of
applications for municipal rate loans did not take into consideration
the applicant's financial strength, loan amounts, or local user rates.
Also, the Rural Electrification Act of 1936, as amended, and regulations
did not allow RUS to ensure that guaranteed loans benefitted only truly
rural areas. This could delay funding for improvement of electrical
services to the most needy borrowers and in truly rural areas.


We recommended that RUS seek legislative change and amend regulations so
that hardship loan funds can be targeted to areas of greatest need by
taking into consideration financial condition and local area user rates
and by ensuring municipal rate loan funds benefit only truly rural
areas. Although agency officials generally agreed with our findings,
they did not agree with our recommendations to seek a legislative or
regulatory change.




                                   14
                               INSURANCE

RISK MANAGEMENT AGENCY (RMA)

Reinsurance Companies’ Quality Control Systems Lacking

RMA delivers multiple-peril crop insurance programs through standard
reinsurance agreements with private insurance companies. Under the
agreements, the companies are required to develop quality control plans
consistent with the agency’s policies and procedures that safeguard
against waste, loss, unauthorized use, and misappropriation. This past
year, we reviewed the quality control processes of reinsured companies
operating under agreements made with RMA in 1995. We found that,
although the quality control systems generally complied with the terms
of the agreement, they did not effectively improve program delivery,
ensure program integrity, and adequately measure or report on program
performance. The consequences of poorly specified requirements in the
reinsurance agreements were insufficient data collection, maintenance,
and reporting requirements; ineffective oversight of quality control
operations; and insufficient controls against conflicts of interest. As
a result, program officials cannot rely on reinsured companies’ quality
control reviews.

We recommended that RMA, in consultation with crop insurance
organizations and experts, adopt appropriate professional standards for
quality control and, in particular, controls to deal with conflicting
sales and claims adjustment operations that affect the integrity of crop
insurance programs. The agency concurred with our recommendations for
improved quality control processes but not with our findings and
recommendations for improved controls against potential conflicts of
interest. We are working with RMA on the disputed recommendations.

Nonirrigated Crop Insurance Yields Set Too High and Practices Not Viable

Prompted by an OIG hotline complaint, we audited RMA’s first year, crop-
year 1998, extra long staple (ELS) cotton insurance program in the Texas
counties of Glasscock, Midland, Reagan, and Upton. We determined that
the transitional-yields, or T-yields, and established yields based on
historical averages for nonirrigated ELS cotton were set exceptionally
high. Also, we questioned whether the growing season and rainfall were
sufficient to produce ELS cotton in these four counties. We reported
that, as a result of these issues, RMA could incur excessive losses of
about $12 million for the 1998 crop-year alone. Similarly, we disclosed
that high T-yields for nonirrigated popcorn in the Rio Grande Valley
resulted in indemnities totaling about $5.5 million for 1997, and
nonirrigated dent corn T-yields for 1998 were sufficiently elevated to
result in losses of between $2.2 million and $2.8 million
in Tom Green County, Texas.

Officials in the four counties stated that these were not locally
accepted practices because more water is required than the counties
receive in rainfall and the growing season is too short for ELS cotton
to properly mature. Therefore, we concluded that nonirrigated practices


                                   15
were not viable in the cited counties and recommended that, effective
for crop-year 1999, RMA discontinue coverage for ELS cotton in the four
counties named in the complaint, popcorn in the Rio Grande Valley, and
dent corn in Tom Green County. RMA agreed.

                   RESEARCH, EDUCATION, AND ECONOMICS

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE (CSREES)

Schedule A Extension Appointees’ Rights Need Clarification

There are approximately 8,000 Schedule A appointees working nationwide
in the State Cooperative Extension System (CES). The appointees receive
Federal benefits including participation in the Federal Health Benefits
Program and civil service retirement plan. In 1990, the Civil Service
Due Process Amendments extended coverage to these appointees. Our
review of adverse actions taken against two appointees by one State
university CES director disclosed that the universities are not always
aware that protections such as counseling and appeals procedures apply.
In this case, the university had offered no protections and stated that
its own policy allowed the CES to dismiss the appointees without
recourse. The Office of General Counsel provided CSREES with an opinion
that these positions fall within the due process requirements of the
Merit Protection System. USDA’s Office of Human Resources Management
confirmed that Schedule A appointees are Federal employees for purposes
of civil service protections.

On December 9, 1998, the Merit System Protection Board ruled that the
individual taking actions against the two employees was within Federal
jurisdiction. The case was remanded to an Administrative Judge for
further adjudication. OIG has encouraged CSREES to work with the
National Association of State Universities and Land Grant Colleges to
inform all CES offices of the appointees’ current status and assist them
in developing suitable personnel procedures for these positions.

           ACCOUNTING, FINANCIAL, AND INFORMATION MANAGEMENT

Financial Statement Audits

As required by the Chief Financial Officers Act of 1990 and the
Government Management Reform Act, we completed seven financial statement
audits of the Department’s programs. We issued unqualified, or “clean,”
opinions on the FY 1997 financial statements of the Federal Crop
Insurance Corporation, the Commodity Credit Corporation, and the Rural
Telephone Bank. Audits of the Rural Development mission area and the
Food and Nutrition Service resulted in qualified opinions. Rural
Development received a qualified opinion because we were unable to
assess the reasonableness of its estimated loan subsidy costs for loans
obligated after FY 1991.

In FY 1997, FNS received a qualified opinion because we were unable to
assess the reasonableness of its gross, non-Federal accounts receivable
for the Food Stamp Program and the related account balances and notes to


                                   16
the financial statements. I am happy to report that on February 1,
1999, we issued an unqualified opinion for the FY 1998 financial
statements for FNS.

For FY 1997, we issued a disclaimer of opinion on the Forest Service
(FS) and the USDA consolidated statements. FS received a disclaimer due
to significant financial system weaknesses which include the lack of an
integrated general ledger and supporting subsidiary records. The USDA
consolidated statements received a disclaimer of opinion for FY 1997
because the Department could not provide assurance that its financial
systems provide information that is relevant, timely, consistently
reported, and in conformance with applicable accounting principles. In
addition to financial system problems, numerous internal control
weaknesses exist that materially impact the Department’s ability to
report accurate and reliable financial information.

A disclaimer of opinion has been issued to the Department for each of
the last 4 years. This means that the Department, as a whole, does not
know whether it correctly reported the amount of revenue it received,
the cost of its operations, or other meaningful measures of financial
performance. The Department and its agencies have recognized the
weaknesses and have put considerable effort into improving their
financial systems and reporting processes. While plans have been made
to fix these problems and actions have been taken to address some of the
weaknesses, more must be done. The Department is carrying out its
Financial Information System Vision and Strategy project aimed at
developing a single integrated financial management system that meets
all Treasury and Office of Management and Budget requirements and
fulfills the needs of USDA. We continue to assist departmental and
agency officials in these efforts.

Information Resources Management

Department Progressing With "Year 2000" Conversion

The Year 2000 issue has the potential to limit the Department’s ability
to deliver its programs. In April 1997, we began a continuing review
and assessment of the Department’s Year 2000 conversion efforts. Most
recently, we completed a review of the renovation and validation efforts
of seven agencies. This review determined whether the agencies had
devised a strategy to convert, replace, or eliminate impacted hardware
and software; fully tested and certified systems identified as
compliant; and adequately assessed data exchanges and communicated with
the exchange partners. Overall, we determined that the agencies are
progressing in their Year 2000 conversion efforts; however, improvement
is needed in some areas.

Our review disclosed that FSA had reported four mission critical
systems--the Highly Erodible Land and Wetland Conservation system, the
Cotton Rate Offer system, the Daily Terminal Prices System, and the
Marketing Assessment System--as Y2K compliant without performing any
validation testing. Also, FSA reported that its Warehouse Rates
Management System and the Processed Commodities Inventory System would


                                   17
not be implemented until June 1999. The Foreign Agricultural Service
reported that its Financial Accounting and Reporting system will be
implemented in April 1999. The Animal and Plant Health Inspection
Service reported its Information System Upgrade Project would not be
implemented until September 1999. In addition, FS reported its data
exchange agreements generally consisted of informal verbal agreements
which did not fully establish the data conversion responsibilities of
each exchange partner.

Due to the time sensitivity of the Year 2000 issue, these findings and
others have been provided to the affected agencies in interim reports.
The agencies have responded to our recommendations, and an audit report
consolidating our findings will be issued later this year. Currently,
we are reviewing personal property, facilities, and equipment because of
their reliance on embedded microprocessor chips.

                           EMPLOYEE INTEGRITY

The investigation of serious misconduct by USDA employees remains a high
priority of OIG. During FY 1998, OIG issued 55 reports of investigation
concerning serious allegations of misconduct by USDA employees. Our
investigations resulted in 23 convictions of current and former
employees and 80 personnel actions, including reprimands, suspensions,
resignations, removals, and alternative discipline.

In July 1994, a tropical storm struck southern Georgia, causing serious
flooding and millions of dollars in damage. As a result, NRCS
negotiated and funded numerous watershed repair contracts under the
Emergency Watershed Protection Program (EWPP). After we received
confidential information from a private sector contractor, our 18-month
investigation developed evidence showing that two NRCS employees, who
were responsible for managing EWPP contracts, accepted cash bribes from
a contractor in exchange for special considerations in obtaining EWPP
contracts. A third employee arranged for a contractor doing business
with NRCS to perform construction work on personally owned land. The
cost of this work was then improperly billed to USDA. During July
through September 1998, the three employees entered guilty pleas in U.S.
District Court to violations resulting from their acceptance of bribes
and gratuities. One employee was fined and placed on probation while
the other two employees are awaiting sentencing. All three employees
resigned from NRCS.


A Louisiana Rural Development county office employee pled guilty in
Federal court to embezzling and misapplying over $82,000 in rural
housing loan payments she had received in her office. She was sentenced
to serve 6 months’ imprisonment, to be followed by 4 months’ home
confinement. She was also fined $10,000 and ordered to pay nearly
$24,350 in restitution. The employee resigned soon after we initiated
our investigation.




                                   18
                               CONCLUSION

This concludes my statement, Mr. Chairman. As you can see, the work of
OIG is far-reaching and expansive. I appreciate the opportunity to
appear today and present this information, and I hope that my comments
have been helpful to you and the Committee. I will be pleased to
respond to any questions you may have at this time.
                                * * * * *




                                  19
